No. __-___
IN THE
SUPREME COURT OF THE UNITED STATES
____________________
CHARLES MCMANEMY,
Petitioner,
vs.
BRUCE TIERNEY, ET AL.,
Respondents.
____________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
____________________
APPENDIX
____________________
_______________________________________
ADAM C. WITOSKY

Counsel of Record
GRIBBLE BOLES STEWART & WITOSKY LAW
2015 Grand Avenue, Suite 200
Des Moines, Iowa 50312
(515) 235-0551
awitosky@gbswlaw.com
COUNSEL FOR PETITIONER

ii
TABLE OF CONTENTS
App. A: Charles McManemy v. Bruce Tierney, et al., Case No. 18-3519 / 183520 / 18-3554, U.S. Court of Appeals for the Eight Circuit, Opinion, August
17, 2020 ........................................................................................................................ 1a
App. B: Charles McManemy v. Bruce Tierney, et al., Case No. 18-3519 / 183520 / 18-3554, U.S. Court of Appeals for the Eighth Circuit, Judgment, August
17, 2020 ...................................................................................................................... 14a
App. C: Charles McManemy v. Bruce Tierney, et al., Case No. 18-3519 / 183520 / 18-3554, U.S. Court of Appeals for the Eighth Circuit, Order Denying
Petition for En-Banc Rehearing, October 23, 2020 .................................................. 17a
App. D: Charles McManemy v. Bruce Tierney, et al., Case No. 17-cv-03020LRR, U.S. District Court for the Northern District of Iowa, Memorandum
Opinion and Order on Motion for Summary Judgment, October 23, 2018 ............. 19a

1a

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 18-3519
___________________________
Charles McManemy
Plaintiff - Appellant
v.
Bruce Tierney; Kiley Winterberg; Curt Lubben; Jennifer Degroote; Karson Roose;
Dewayne Viet; John/Jane Doe(s), in each individual’s capacity as a law
enforcement officer/jailer/dispatcher for the Butler County Sheriff’s Office;
Jennifer Becker, in her individual capacity as a nurse for Butler County, Iowa; Kirk
Dolleslager, in his individual capacity as a law enforcement officer for the Grundy
County Sheriff’s Office; Sheriff Jason Johnson, in his individual capacity; Sheriff
Rick Penning; Butler County; Grundy County
Defendants - Appellees
___________________________
No. 18-3520
___________________________
Charles McManemy
Plaintiff - Appellee
v.
Bruce Tierney; Kiley Winterberg; Curt Lubben
Defendants - Appellants
Jennifer Degroote; Karson Roose; Dewayne Viet
Defendants
Appendix A

2a

John/Jane Doe(s), in each individual’s capacity as a law enforcement
officer/jailer/dispatcher for the Butler County Sheriff’s Office
Defendant - Appellant
Jennifer Becker, in her individual capacity as a nurse for Butler County, Iowa; Kirk
Dolleslager, in his individual capacity as a law enforcement officer for the Grundy
County Sheriff’s Office
Defendants
Sheriff Jason Johnson, in his individual capacity
Defendant - Appellant
Sheriff Rick Penning
Defendant
Butler County
Defendant - Appellant
Grundy County
Defendant
___________________________
No. 18-3554
___________________________
Charles McManemy
Plaintiff - Appellee
v.
Bruce Tierney; Kiley Winterberg; Curt Lubben; Jennifer Degroote; Karson Roose;
Dewayne Viet; John/Jane Doe(s), in each individual’s capacity as a law
-2-

3a

enforcement officer/jailer/dispatcher for the Butler County Sheriff’s Office;
Jennifer Becker, in her individual capacity as a nurse for Butler County, Iowa
Defendants
Kirk Dolleslager, in his individual capacity as a law enforcement officer for the
Grundy County Sheriff’s Office
Defendant - Appellant
Sheriff Jason Johnson, in his individual capacity
Defendant
Sheriff Rick Penning
Defendant - Appellant
Butler County
Defendant
Grundy County
Defendant - Appellant
____________
Appeals from United States District Court
for the Northern District of Iowa - Ft. Dodge
____________
Submitted: January 15, 2020
Filed: August 17, 2020
____________
Before BENTON, GRASZ, and STRAS, Circuit Judges.
____________

4a

STRAS, Circuit Judge.
Charles McManemy believes that deputies used excessive force against him
after he led them on a high-speed chase. Although he suffered physical injuries
during the ensuing arrest, the district court1 granted summary judgment to the
deputies based on qualified immunity. We affirm.
I.
The deputies believed that McManemy was on his way to making a drug
delivery. Hoping that they would have the chance to stop him, they seized the
opportunity when he ran a stop sign. Even flashing lights and a siren, however, did
not stop McManemy. For the next 10 minutes, he led them on a high-speed chase
through rural highways, gravel roads, and a private farm.
With their other options exhausted, the deputies finally rammed
McManemy’s vehicle. McManemy eventually emerged from the disabled vehicle
after trying to make a call and lighting a cigarette. When he did, he laid face down
on the road with his arms and legs spread.
Still, the deputies had difficulty arresting him. Although the parties dispute
how much he resisted and why, the dash-cam video shows his legs flailing, and he
admits to having failed to comply with orders to “[q]uit resisting” and to “knock it
off.” See Oral Arg. at 1:44–1:50 (conceding that the dash-cam video “clearly”
shows that he was resisting “up until a point”). In the end, subduing McManemy
took two interlocked sets of handcuffs and six deputies.
This case is all about what happened during the scuffle. McManemy claims
that one deputy tased him up to five times and that another used a knee to
1

The Honorable Leonard T. Strand, Chief Judge, United States District Court
for the Northern District of Iowa.
-4-

5a

repeatedly bash him in the head. The blows to the head allegedly caused damage
to his eye, first bruising and later problems with light sensitivity and “floaters.”
McManemy brought excessive-force claims under 42 U.S.C. § 1983 against
the deputies and other government defendants. Also included are claims against
the other deputies on the scene, who allegedly failed to intervene and protect him.
These basic theories are mirrored in several Iowa state-law claims, too.
Neither side is satisfied with how the district court decided the case. On one
hand, McManemy believes that the court should not have granted summary
judgment to the defendants on his federal claims. At the same time, the defendants
are disappointed that the court did not exercise supplemental jurisdiction over
McManemy’s state-law claims. Both appeal the parts of the ruling that they lost.
II.
We review the district court’s decision to grant summary judgment de novo.
Morgan v. Robinson, 920 F.3d 521, 523 (8th Cir. 2019) (en banc). “Summary
judgment [was] appropriate [if] the evidence, viewed in [the] light most favorable
to [McManemy], shows no genuine issue of material fact exists and the
[defendants were] entitled to judgment as a matter of law.” Phillips v. Mathews,
547 F.3d 905, 909 (8th Cir. 2008) (citation omitted).
For McManemy’s federal claims, it all comes down to whether the deputies
are entitled to qualified immunity, which depends on the answer to two questions.
First, did they violate a constitutional right? Second, was the right clearly
established? See Morgan, 920 F.3d at 523. If the answer to either question is
“no,” we will affirm. See id. (making clear that we may answer the questions in
either order).

-5-

6a

A.
The first allegedly unconstitutional act was the use of a taser against
McManemy. See Jackson v. Stair, 944 F.3d 704, 710 (8th Cir. 2019). In addition
to suing Deputy Kirk Dolleslager, who used the taser, McManemy alleges that a
nearby officer, Deputy Curt Lubben, violated clearly established law by failing to
intervene on his behalf. Hicks v. Norwood, 640 F.3d 839, 843 (8th Cir. 2011)
(discussing the duty to intervene). Both claims depend on whether using the taser
was objectively reasonable under the circumstances. See Graham v. Connor, 490
U.S. 386, 396–97 (1989); Hicks, 640 F.3d at 843.
1.
As in many qualified-immunity cases, the parties have “two different
stories” about what happened. Scott v. Harris, 550 U.S. 372, 378, 380 (2007).
McManemy claims that Deputy Dolleslager “sadistically” tased him in drive-stun
mode,2 once before handcuffing him and two-to-four times afterward. Deputy
Dolleslager says that he only tased him twice, once before placing the handcuffs on
his right wrist and once more to get them on his other wrist.
In an appeal from a summary-judgment ruling on qualified immunity, we
typically credit the plaintiff’s version of the facts. See id. at 378. In some cases,
however, the record so “blatantly contradict[s]” the plaintiff’s account that “no
reasonable jury could believe it.” Id. at 380. In those instances, we do not “adopt
th[e plaintiff’s] version of the facts” in evaluating whether the officers were
entitled to summary judgment. Id.

2

Drive-stun mode is the “lowest” setting. In this mode, the taser makes direct
contact with the suspect’s skin, but the charge is not incapacitating. See Cravener v.
Shuster, 885 F.3d 1135, 1137 n.1 (8th Cir. 2018).
-6-

7a

This is one of those cases. Many tasers have logs that record when and how
they are used. The log on Deputy Dolleslager’s device revealed that it had only
been discharged twice—each for three seconds, fifteen seconds apart. McManemy
has never challenged the log’s accuracy, so the record “blatantly contradicts” his
account that he was tased between three and five times. See Oral Arg. at 2:10–2:25
(conceding that the log accurately reflects the number and timing of the taser
bursts).
With the taser having been discharged only twice, McManemy’s admissions
take on central importance. See Tokar v. Armontrout, 97 F.3d 1078, 1081–83 (8th
Cir. 1996) (relying heavily on a plaintiff’s admissions when affirming a qualifiedimmunity ruling). The first key admission is that he was not yet handcuffed when
Deputy Dolleslager tased him the first time. Under our precedent, it is reasonable
for an officer to tase an uncuffed suspect who appears to be resisting arrest. See
Ehlers v. City of Rapid City, 846 F.3d 1002, 1011 (8th Cir. 2017); Carpenter v.
Gage, 686 F.3d 644, 650 (8th Cir. 2012).
The second tasing was reasonable too because of McManemy’s other
admission: in the intervening 15 seconds between taser discharges, the deputies
had to get the handcuffs on his other wrist. Construing the remaining disputed
facts in McManemy’s favor, it is possible that Deputy Dolleslager tased him for the
second time just after he was fully handcuffed. Even so, we have already held that
discharging a taser in drive-stun mode under similar circumstances is objectively
reasonable. See Brossart v. Janke, 859 F.3d 616, 626 (8th Cir. 2017); see also
Franklin v. Franklin Cty., 956 F.3d 1060, 1062–63 (8th Cir. 2020) (discussing
cases allowing the use of drive-stun taser bursts on suspects who are already
handcuffed). After all, here it came at the tail end of a “tumultuous” struggle
between McManemy and the deputies. Rudley v. Little Rock Police Dep’t, 935
F.3d 651, 654 (8th Cir. 2019).

-7-

8a

It makes no difference if, as McManemy argues, one of the deputies knew
that he had a preexisting shoulder condition that made it difficult for him to
comply with their commands. See Schoettle v. Jefferson Cty., 788 F.3d 855, 858,
860–61 (8th Cir. 2015). Regardless of whether one or more of them knew about
his injury, the deputies still had to subdue him, even if he had an “innocent” reason
for flailing his legs and refusing to give up one of his arms. Carpenter, 686 F.3d at
650 (explaining that the use of a taser does not become excessive just because an
arrestee has an “innocent” motive for refusing to give up his hands); see also
Schoettle, 788 F.3d at 858, 860–61 (holding that the force used to restrain a
noncompliant arrestee was reasonable even if the officers knew that his
belligerence was caused by a hypoglycemic episode).
2.
This conclusion also resolves the failure-to-intervene claim against Deputy
Lubben. To be sure, “an officer who fails to intervene to prevent the
unconstitutional use of excessive force by another officer may be held liable for
violating the Fourth Amendment.” Hollingsworth v. City of St. Ann, 800 F.3d 985,
991 (8th Cir. 2015) (emphases added and citation omitted). But there is no duty to
prevent the constitutional use of reasonable force. See id. If Deputy Dolleslager
did not violate McManemy’s constitutional rights, then neither did Deputy Lubben.
See Hicks, 640 F.3d at 843.
B.
According to McManemy, the deputies did more than just tase him. One of
them, Deputy Bruce Tierney, used his knee as a weapon and repeatedly hit him in
the head with it. Once again, the claim is excessive force, but this time it fails for a
different reason: the absence of a clearly established right.

-8-

9a

1.
As with McManemy’s other claim, we must first identify the relevant facts.
Again, the stories differ. McManemy says that he suffered severe bruising and
lasting eye damage from being hit in the face with Deputy Tierney’s knee. The
deputies argue, by contrast, that no one’s knee touched McManemy’s head and that
his injuries must have happened some other way. They claim to have proof: a
dash-cam video.
The dash-cam video, however, is equivocal at best. It shows Deputy Tierney
kneeling next to McManemy’s head for about 40 seconds. But for much of that
time, it is impossible to see what he is doing because another officer and a dog
block the view. And even when they do not, the footage is just too grainy to make
out what is happening. In short, the video does not “blatantly contradict[]”
McManemy’s account. Coker v. Ark. State Police, 734 F.3d 838, 841, 843 (8th
Cir. 2013) (citation omitted) (reaching a similar conclusion when faced with an
inconclusive dash-cam video).
Construing the facts in McManemy’s favor, Deputy Tierney still did not
violate a clearly established right. McManemy does not suggest that this is the
“rare[,] obvious case,” in which the violation is so clear that it is unnecessary to
identify an “existing precedent.” District of Columbia v. Wesby, 138 S. Ct. 577,
590 (2018) (internal quotation marks and citation omitted). So to prevail on this
claim, McManemy must point to a case that “squarely governs the specific facts at
issue.” Kelsay v. Ernst, 933 F.3d 975, 980 (8th Cir. 2019) (en banc) (quoting
Kisela v. Hughes, 138 S. Ct. 1148, 1153 (2018) (per curiam)). He believes there
are two: Gill v. Maciejewski, 546 F.3d 557 (8th Cir. 2008), and Krout v. Goemmer,
583 F.3d 557 (8th Cir. 2009). Neither, however, “squarely governs” this case.
The first, Gill, is the closer of the pair. There too, an officer slammed his
knee into an arrestee’s head. 546 F.3d at 561. The arrestee, who was lying on the
-9-

10a

ground at the time, suffered five facial-bone fractures, a concussion, and a brain
bleed after the officer performed a standing knee-drop maneuver on him. Id. We
upheld the jury’s finding that this level of force was unreasonable under the
circumstances. Id. at 562.
For two reasons, however, Gill is still not close enough. First, Gill offered
“no resistance,” whereas McManemy led deputies on a 10-minute, high-speed
chase and, by his own admission, put up some resistance once he was captured. Id.
at 561–62; see Kelsay, 933 F.3d at 980 (distinguishing between fully compliant
and non-compliant arrestees); see also Kisela, 138 S. Ct. at 1152 (discussing
flight). Second, the level of force was different. By jumping on Gill from a
standing position, the officer used near-deadly force and caused life-threatening
injuries. Gill, 546 F.3d at 561. Although what happened here was violent, it is not
in the same league as the knee-drop maneuver from Gill. See Mann v. Yarnell, 497
F.3d 822, 826 (8th Cir. 2007) (explaining that we consider the injuries suffered
when evaluating the level of force).
The second, Krout, is not even close. It involved extreme levels of
“gratuitous” force against a “fully[-]subdued,” non-resisting arrestee who
eventually died. 583 F.3d at 563, 566. An officer “hip toss[ed]” him to the
ground, and then, together with other officers, beat him. Id. at 561. The use of
force in this case, by contrast, falls well short of Krout. And perhaps most
importantly, McManemy admits that he suffered his injuries during a struggle to
handcuff him, not when he was “fully subdued.” Id. at 566; see Kelsay, 933 F.3d
at 980 (drawing a similar distinction).
2.
This analysis extends to the other deputies, too. To hold them liable for their
failure to intervene, McManemy had to establish that they knew “or had reason to
know that excessive force would be or was being used.” Hollingsworth, 800 F.3d
-10-

11a

at 991 (citation omitted). If Deputy Tierney did not violate a clearly established
right, then the other deputies would not have had “fair notice” that he was using
unconstitutionally excessive force against McManemy either. Id.
III.
One loose end remains. The district court declined to exercise supplemental
jurisdiction over McManemy’s Iowa state-law claims after it had “dismissed all
[the] claims over which it ha[d] original jurisdiction.” 28 U.S.C. § 1367(c)(3).
The defendants wanted the court to decide those on the merits too, rather than just
dismissing them without prejudice.
We rarely overturn this “purely discretionary” call. Crest Constr. II, Inc. v.
Doe, 660 F.3d 346, 359 (8th Cir. 2011) (citation omitted) (reviewing for an abuse
of discretion). In fact, when a district court has dismissed every federal claim, as
here, “judicial economy, convenience, fairness, and comity” will usually “point
toward declining to exercise jurisdiction over the remaining state-law claims.”
Wilson v. Miller, 821 F.3d 963, 970–71 (8th Cir. 2016) (citation omitted). This
case is no exception. See, e.g., Zubrod v. Hoch, 907 F.3d 568, 572–73, 580–81
(8th Cir. 2018) (affirming in a similar case).
IV.
We accordingly affirm the judgment of the district court.
GRASZ, Circuit Judge, concurring in part and dissenting in part.
“It [is] clearly established . . . that when a person is subdued and restrained
with handcuffs, a ‘gratuitous and completely unnecessary act of violence’ is
unreasonable and violates the Fourth Amendment.” Blazek v. City of Iowa City,
761 F.3d 920, 925 (8th Cir. 2014) (quoting Henderson v. Munn, 439 F.3d 497, 503
-11-

12a

(8th Cir. 2006)). Viewed in a light most favorable to McManemy, the facts
establish Deputy Tierney repeatedly — twenty to thirty times — kneed
McManemy in the eye area after he was subdued and restrained. Therefore, I do
not believe Tierney is entitled to qualified immunity for this gratuitous use of force
and I dissent from Section II.B. of the court’s opinion.
When defining the context surrounding the challenged use of force for
purposes of either prong of the qualified immunity analysis, we are required to
grant inferences in favor of the non-moving party. See Tolan v. Cotton, 572 U.S.
650, 656–57 (2014). Failure to do so results in the impermissible invasion into the
province of the fact-finder by weighing the evidence. Id. at 657.
Here, I believe the context surrounding Tierney’s use of force is particularly
important. McManemy led police officers on a long, high-speed chase. This put
both the participants and the public at risk. But ultimately he laid facedown in the
middle of the road with his arms and legs spread, giving himself up for arrest.
According to McManemy, the resulting melee occurred because the officers
incorrectly thought he was resisting arrest when they tried to handcuff him, when
in fact a preexisting shoulder injury and an involuntary response to tasing caused
the appearance of resistence. Regardless of the reason for the struggle, I agree with
the court it was reasonable for the officers to believe otherwise and this justifies
some of the physical force used.
But I do not believe Tierney’s repeated kneeing of McManemy in the eye
was within that justified use of force. The video evidence presented showed
Tierney arrived at the scene after McManemy had laid down and after at least four
officers were already on top of him. Tierney arrived, first kicked or stomped on
McManemy’s leg, and then moved to the left side of McManemy’s head. As the
court explains, the video does not show what Tierney then does for the next minute
or so. But if we are to believe McManemy, Tierney repeatedly — up to twenty or
thirty times — kneed him, resulting in demonstrable injury to the eye.
-12-

13a

The court distinguished what happened to McManemy from cases like Gill
v. Maciejewski, 546 F.3d 557 (8th Cir. 2008), and Krout v. Goemmer, 583 F.3d 557
(8th Cir. 2009), by noting that the plaintiffs in those cases were subdued and
offered no resistence. But in light of the above-mentioned evidence and our duty
to draw inferences in McManemy’s favor, a jury could conclude that some of the
strikes from Tierney’s knee occurred after McManemy was handcuffed and after
any reasonable belief in resistance would cease. That is, a jury could find that
Tierney struck McManemy’s face when he was subdued and offered no resistence.
If true, such actions were completely unnecessary to effect the arrest. This circuit
has clearly established that gratuitous force after a subdued suspect no longer poses
a threat violates the Fourth Amendment. See Blazek, 761 F.3d at 925 (holding that
jerking a non-resisting suspect from the floor to his bed after he was handcuffed
and posed no threat violated clearly established law); Krout, 583 F.3d at 566 (“It
was clearly established that the use of this type of gratuitous force against a suspect
who is handcuffed, not resisting, and fully subdued is objectively unreasonable
under the Fourth Amendment.”); Gill, 546 F.3d at 562 (explaining an officer used
excessive force where he smashed his knee into a suspect’s head when the suspect
was not resisting and was already pinned down by multiple officers). Thus, I
believe there is sufficient evidence of a clearly established Fourth Amendment
violation and would reverse the district court’s grant of summary judgment in
favor of Tierney.
______________________________

-13-

14a

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 18-3519
___________________
Charles McManemy
Plaintiff - Appellant
v.
Bruce Tierney; Kiley Winterberg; Curt Lubben; Jennifer Degroote; Karson Roose; Dewayne
Viet; John/Jane Doe(s), in each individual's capacity as a law enforcement
officer/jailer/dispatcher for the Butler County Sheriff's Office; Jennifer Becker, in her individual
capacity as a nurse for Butler County, Iowa; Kirk Dolleslager, in his individual capacity as a law
enforcement officer for the Grundy County Sheriff's Office; Sheriff Jason Johnson, in his
individual capacity; Sheriff Rick Penning; Butler County; Grundy County
Defendants - Appellees
___________________
No: 18-3520
___________________
Charles McManemy
Plaintiff - Appellee
v.
Bruce Tierney; Kiley Winterberg; Curt Lubben
Defendants - Appellants
Jennifer Degroote; Karson Roose; Dewayne Viet
Defendants
John/Jane Doe(s), in each individual's capacity as a law enforcement officer/jailer/dispatcher for
the Butler County Sheriff's Office
Defendant - Appellant
Jennifer Becker, in her individual capacity as a nurse for Butler County, Iowa; Kirk Dolleslager,
in his individual capacity as a law enforcement officer for the Grundy County Sheriff's Office
Defendants
Appendix B

15a
Sheriff Jason Johnson, in his individual capacity
Defendant - Appellant
Sheriff Rick Penning
Defendant
Butler County
Defendant - Appellant
Grundy County
Defendant
___________________
No: 18-3554
___________________
Charles McManemy
Plaintiff - Appellee
v.
Bruce Tierney; Kiley Winterberg; Curt Lubben; Jennifer Degroote; Karson Roose; Dewayne
Viet; John/Jane Doe(s), in each individual's capacity as a law enforcement
officer/jailer/dispatcher for the Butler County Sheriff's Office; Jennifer Becker, in her individual
capacity as a nurse for Butler County, Iowa
Defendants
Kirk Dolleslager, in his individual capacity as a law enforcement officer for the Grundy County
Sheriff's Office
Defendant - Appellant
Sheriff Jason Johnson, in his individual capacity
Defendant
Sheriff Rick Penning
Defendant - Appellant
Butler County
Defendant
Grundy County

16a
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Northern District of Iowa - Ft. Dodge
(3:17-cv-03020-LTS)
______________________________________________________________________________
JUDGMENT

Before BENTON, GRASZ and STRAS, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
August 17, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

17a

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3519
Charles McManemy
Appellant
v.
Bruce Tierney, et al.
Appellees
No: 18-3520
Charles McManemy
Appellee
v.
Bruce Tierney, et al.
Appellants
Jennifer Degroote, et al.
John/Jane Doe(s), in each individual's capacity as a law enforcement officer/jailer/dispatcher for
the Butler County Sheriff's Office
Appellant
Jennifer Becker, in her individual capacity as a nurse for Butler County, Iowa and Kirk
Dolleslager, in his individual capacity as a law enforcement officer for the Grundy County
Sheriff's Office
Sheriff Jason Johnson, in his individual capacity
Appellant
Sheriff Rick Penning
Butler County
Appellant
Grundy County
Appendix C

18a
No: 18-3554
Charles McManemy
Appellee
v.
Bruce Tierney, et al.
Kirk Dolleslager, in his individual capacity as a law enforcement officer for the Grundy County
Sheriff's Office
Appellant
Sheriff Jason Johnson, in his individual capacity
Sheriff Rick Penning
Appellant
Butler County
Grundy County
Appellant
______________________________________________________________________________
Appeals from U.S. District Court for the Northern District of Iowa - Ft. Dodge
(3:17-cv-03020-LTS)
______________________________________________________________________________
ORDER

The petition for rehearing en banc is denied. The petition for panel rehearing is
also denied.
Judges Kelly, Erickson, and Grasz would grant the petition for rehearing en banc.
October 23, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

19a

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
CENTRAL DIVISION
CHARLES McMANEMY,
No. C17-3020-LTS
Plaintiff,
vs.
MEMORANDUM OPINION AND
ORDER ON MOTION FOR
SUMMARY JUDGMENT

BRUCE TIERNEY, et al.,
Defendants.

___________________________
I.

INTRODUCTION

This case is before me on two motions: (1) a motion (Doc. No. 57) for summary
judgment filed by defendants Bruce Tierney, Kiley Winterberg, Curt Lubben, Jason
Johnson and Butler County, Iowa,1 and (2) a motion (Doc. No. 74) for summary
judgment filed by defendants Kirk Dolleslager, Rick Penning, and Grundy County,
Iowa.2 Plaintiff Charles McManemy has resisted both motions (Doc. No. 67, 79) and
both sets of defendants have replied (Doc. No. 71, 87). I find that oral argument is not
necessary on either motion. See N.D. Ia. L.R. 7(c).

1

Johnson was the Butler County Sheriff at the time of McManemy’s arrest. Doc. No. 2 at ¶ 4.
Tierney, Winterberg and Lubben were law enforcement officers with the Butler County
Sherriff’s Office. Id. at ¶ 6-8. I previously granted summary judgment against McManemy as
to defendants Jennifer DeGroote, Karson Roose, Dewayne Viet and Jennifer Becker, as well as
the unnamed “John/Jane Doe” defendants. See Doc. No. 54. The claims against Johnson and
Butler County arising from the treatment McManemy received for his various ailments while
incarcerated were also dismissed by my order at Doc. No. 54, although negligent hiring, training
and supervision claims arising from the arrest remain against these defendants under Count VII.
2

Penning was the Grundy County Sheriff at the time of McManemy’s arrest and Dolleslager
was a law enforcement officer with the Grundy County Sheriff’s Office. Doc. No. 2 at ¶¶ 5,
14.

Appendix D

20a

II.

PROCEDURAL HISTORY

McManemy filed a complaint (Doc. No. 2) on March 16, 2017, and defendants
answered, denying liability and raising various affirmative defenses. Doc. Nos. 14, 15,
17. The complaint asserts several constitutional claims brought under 42 U.S.C. § 1983,
as well as claims brought under Iowa law against various state employees and two Iowa
counties. All of the claims arise from the events that transpired during McManemy’s
March 18, 2015, arrest by officers from Butler and Grundy County, Iowa, and during
his subsequent period of incarceration in the Butler County jail from March 18, 2015, to
October 7, 2015. On June 5, 2018, I granted defendants’ motion for summary judgment
as to Counts V, VI, parts of Count VII, and Count IX. Doc. No. 54. The following
claims are subject to the present motion:
Count I: Violation of Right to be Free from Excessive Force and
Unreasonable Seizures (§ 1983) against Dolleslager – Taser Bursts.
Count II: Violation of Right to be Free from Excessive Force and
Unreasonable Seizures (§ 1983) against Lubben – Bystander Liability for
Count I.
Count III: Violation of Right to be Free from Excessive Force and
Unreasonable Seizures (§ 1983) against Tierney – Assault.
Count IV: Violation of Right to be Free from Excessive Force and
Unreasonable Seizures (§ 1983) against Lubben and Dolleslager –
Bystander Liability for Count III.
Count VII: Negligent Hiring, Training and Supervision (Iowa law) against
Johnson, Penning, Butler County and Grundy County.
Count VIII: Assault and Battery (Iowa law) against Dolleslager, Lubben,
Tierney and Winterberg.
Count IX: Negligence (Iowa law) against Dolleslager, Lubben, Tierney,
Winterberg and Johnson.

2

21a

III. SUMMARY JUDGMENT STANDARDS
Any party may move for summary judgment regarding all or any part of the claims
asserted in a case. Fed. R. Civ. P. 56(a). Summary judgment is appropriate when “the
pleadings, depositions, answers to interrogatories and admissions on file, together with
the affidavits, if any, show that there is no genuine issue as to any material fact and that
the moving party is entitled to a judgment as a matter of law.” Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986).
A material fact is one “that might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). Thus,
“the substantive law will identify which facts are material.” Id. Facts that are “critical”
under the substantive law are material, while facts that are “irrelevant or unnecessary”
are not. Id. “An issue of material fact is genuine if it has a real basis in the record,”
Hartnagel v. Norman, 953 F.2d 394, 395 (8th Cir. 1992) (citing Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 586-87 (1986)), or “when ‘a reasonable jury
could return a verdict for the nonmoving party’ on the question,” Woods v.
DaimlerChrysler Corp., 409 F.3d 984, 990 (8th Cir. 2005) (quoting Anderson, 477 U.S.
at 248). Evidence that only provides “some metaphysical doubt as to the material facts,”
Matsushita, 475 U.S. at 586, or evidence that is “merely colorable” or “not significantly
probative,” Anderson, 477 U.S. at 249-50, does not make an issue of material fact
genuine. Put another way, “[e]vidence, not contentions, avoids summary judgment.”
Reasonover v. St. Louis Cnty., 447 F.3d 569, 578 (8th Cir. 2006) (citation omitted). The
parties “may not merely point to unsupported self-serving allegations.” Anda v. Wickes
Furniture Co., 517 F.3d 526, 531 (8th Cir. 2008).
As such, a genuine issue of material fact requires “sufficient evidence supporting
the claimed factual dispute” so as to “require a jury or judge to resolve the parties’
differing versions of the truth at trial.” Anderson, 477 U.S. at 249 (quotations omitted).
The party moving for entry of summary judgment bears “the initial responsibility of
3

22a

informing the district court of the basis for its motion and identifying those portions of
the record which show a lack of a genuine issue.” Hartnagel, 953 F.2d at 395 (citing
Celotex, 477 U.S. at 323). Once the moving party has met this burden, the nonmoving
party must go beyond the pleadings and by depositions, affidavits, or otherwise, designate
specific facts showing that there is a genuine issue for trial.

Mosley v. City of

Northwoods, 415 F.3d 908, 910 (8th Cir. 2005). The nonmovant must show an alleged
issue of fact is genuine and material as it relates to the substantive law. Id. If a party
fails to make a sufficient showing of an essential element of a claim or defense with
respect to which that party has the burden of proof, then the opposing party is entitled to
judgment as a matter of law. Celotex, 477 U.S. at 322.
To determine whether a genuine issue of material fact exists, I must view the
evidence in the light most favorable to the nonmoving party. Matsushita, 475 U.S. at
587-88. Further, I must give the nonmoving party the benefit of all reasonable inferences
that can be drawn from the facts. Id. However, “because we view the facts in the light
most favorable to the nonmoving party, we do not weigh the evidence or attempt to
determine the credibility of the witnesses.” Kammueller v. Loomis, Fargo & Co., 383
F.3d 779, 784 (8th Cir. 2004) (citing Quick v. Donaldson Co., 90 F.3d 1372, 1376-77
(8th Cir. 1996)). Instead, “the court’s function is to determine whether a dispute about
a material fact is genuine.” Quick, 90 F.3d at 1377.
IV.

RELEVANT FACTS

Unless otherwise noted, the parties do not dispute the following facts:
On March 18, 2015, McManemy borrowed a truck from his friend Janet. Doc.
No. 67-3 at 5. McManemy took this truck to go visit his girlfriend and get his motorcycle
fixed in Iowa Falls, Iowa. Doc. No. 61 at 8; Doc. No. 67-3 at 4-5. McManemy attached
an open air trailer to the truck while in Iowa Falls, and began driving back towards Janet’s
house in Ackley, Iowa, at approximately 3:30 p.m. Id. at 5. At some point on this drive,
McManemy’s mother informed him over the phone that his father had been admitted to
4

23a

the hospital in Iowa City for congestive heart failure, and that his father was on his death
bed. Id. McManemy testified that his plan was to return the truck to Janet, drive to
Waterloo and then get a ride from a friend to Iowa City. Id.
Meanwhile, officers from Grundy and Butler Counties were engaged in a narcotics
investigation involving McManemy. Doc. No. 61 at 120-21. The officers believed
McManemy was making a delivery of narcotics and they intended to conduct a traffic
stop before he made the delivery. Id. Lubben’s police report states that “because of
prior interaction with [McManemy] it was anticipated that he could try to elude us if he
was the driver of the vehicle.” Id. at 120.
McManemy was first observed by officers about two miles outside of Ackley,
Iowa, around 7:20 p.m. Dolleslager’s dash camera captures McManemy travelling the
opposite direction. Dolleslager Video at 19:26. Dolleslager turned around, activated his
lights, and began to pursue McManemy. Id. at 19:26-19:28. McManemy testified that
he believed Dolleslager saw him run a stop sign. Doc. No. 67-3 at 5. Dolleslager
testified that he intended to pull McManemy over for speeding. Id. at 26. McManemy
agreed that Dolleslager had the right to pull him over and that there was probable cause
for an arrest. Id. at 7. However, McManemy testified that he did not stop his car because
he was scared and because he wanted to return to Iowa City to see his father. Id. at 7-8.
The ensuing chase, which reached speeds of 80 to 90 miles per hour, resulted in
McManemy’s vehicle being rammed twice and involved a detour through a plowed
cornfield, followed by McManemy dragging a hundred feet of barbed-wire fencing that
sparked and whipped against the road behind him. See generally, Dolleslager Video,
Lubben Video.

At one point, Winterberg attempted to throw a spike strip in

McManemy’s path.

Doc. No. 67-3 at 30.

This event does not appear on video.

However, Winterberg and McManemy agree that the spike strip went through
McManemy’s front windshield. Id. at 7, 30.
McManemy came to a stop after about 12 minutes. See Dolleslager Video from
19:26 to 19:38. Several police vehicles surrounded McManemy’s truck and an officer
5

24a

yelled at McManemy to get out of the car. Lubben Video at 8:50. Other police cars
parked between McManemy’s truck and Lubben’s dash cam, such that Lubben’s dash
cam captured only audio of the arrest. McManemy’s testimony is that he stopped,
attempted to make a phone call but realized that his phone was dead, set aside a knife,
and lit a cigarette before getting out of the car. Doc. No. 67-3 at 9. Dolleslager’s dash
cam recorded the visual (but limited audio) of McManemy as he got out of the truck and
laid spread-eagle on the ground. Dolleslager Video at 19:38. Lubben testified that as he
approached, he saw McManemy place something behind him, potentially in his pocket.
Doc. No. 67-3 at 33. This event is not visible on the dash cam.
There is some disagreement over what happened next. McManemy states that he
spread his arms and legs and waited to be handcuffed. Doc. No. 67-3 at 9. However,
due to a prior shoulder injury, McManemy alleges that he was unable to comply with the
officers pulling his right arm behind his back and that he asked the officers to cuff him
with two pairs of handcuffs. Id. McManemy claims that Lubben knew of his shoulder
injury and should have known from prior arrests that two sets of handcuffs were required
and, indeed, that McManemy was screaming at the deputies to use two sets of handcuffs.
Id. McManemy states that his left arm was lying on the ground, touching the side of his
body. Doc. No. 61 at 22-23. At least one officer was holding McManemy’s head down
from the right side. Doc. No. 67-3 at 9 (“And the one’s got his knee right on the side of
my head (indicating).”). As the group continued to struggle, McManemy argues that
Tierney aggressively stepped on and kicked McManemy’s right leg. Tierney then placed
himself on the left side of McManemy’s body, near his head, where he began to knee
McManemy’s head as it was being held down, doing damages to his left eyeball:
Q.

What are you claiming happened that caused your left eye to swell
up and close?

A.

Him (pointing to Deputy Tierney) putting his knee into my eyeball
about 20, 30 times.

Q.

20 or 30 times?
6

25a

A.

That I – I think. I’m being jerked from the back and being jerked
from the side. He’s kneeing me in the face.

Q.

So he’s taking his knee and he’s kind of ramming it?

A.

Yeah, he’s on his knees.

Q.

Okay. So you claim the deputy that had brown pants was on his
knees?

A.

Yes.

Q.

And that he was lifting up a knee and kind of smacking it on your
eye?

A.

Right.

Id. at 24. Throughout this interaction, McManemy states that he was screaming for the
officers to use two sets of handcuffs and that he was being thrashed around. Officers
continued wrenching his arm and there were six deputies “hands-on” McManemy when
McManemy states he was tased for the first time. Doc. No. 67-3 at 11. Finally, officers
handcuffed McManemy using two sets of handcuffs. McManemy asserts that he was
tased at least one more time after he was handcuffed.3 Id.
The officers’ version of the arrest differs primarily in that they state McManemy
did not remain still when they attempted to cuff them. Although Lubben, Tierney and
Johnson each testified that they had control over McManemy’s right arm, his left arm
was tucked beneath his body, resisting handcuffs. Doc. No. 61 at 35, 43, 47. Dolleslager
indicated in his report that McManemy was resisting handcuffs with both arms. Doc.
No. 75-1 at 35. Further, the officers denied knowledge that McManemy’s shoulder was
injured at the time of this arrest. From the audio on Lubben’s dashboard camera, the
3

McManemy’s testimony has been inconsistent on this point. In the complaint, he alleges being
tased upwards of five times. See Doc. No. 2 at ¶¶ 24, 26-27. By the time he was deposed in
January 4, 2018, his testimony was that he was tased three times: twice in the back and once on
his thigh. Doc. No. 61 at 21. This testimony is contradicted by the data readout from the device
used to tase McManemy, which indicates he was tased only twice. Doc. No. 75-1 at 33.

7

26a

officers can be heard telling McManemy not to move at the 10:30 and 11:23 time stamps.
Winterberg testified that McManemy was flailing his legs trying to kick Dolleslager.
Doc. No. 61 at 58. At 8:22:58 p.m., the readout for Dolleslager’s taser indicates that
Dolleslager tased McManemy for three seconds. Doc. No. 75-1 at 31. Dolleslager’s
report indicates that he was able to cuff McManemy’s right arm after tasing him in “drive
mode,”4 but that another officer was still struggling to cuff the other arm and requested
a second application of the taser. Id. at 35. Dolleslager tased McManemy’s thigh at

4

Tasers can be used in “drive mode” or in “probe mode:”
When the officer deploys the TASER ECW in probe mode, and the two probes
attach to the suspect’s clothing or skin, the device will send a pulsating electrical
charge. When there is a successful probe deployment, the subject typically is
disabled for the duration of the cycle. The high-voltage, low amperage electrical
charge is designed to induce motor-nerve mediated involuntary muscle
contractions (NMI) by sending impulses that override the signals of the sensory
and motor nervous systems that are sent to and from the central nervous system
(CNS). Should only one probe strike the suspect and the other probe fail to make
contact, or if one probe attaches to clothing but is more than two inches away
from the body, or if one or both probes lose contact with the subject for any
reason, or if the probes are too close together on the body, the CED will typically
not incapacitate the subject unless the officer is able to approach the subject and
do a follow-up “drive-stun” on the subject, which will complete the circuit with
the wire(s) that attached during the ‘probe’ mode attempt.
The “drive-stun” mode is generally considered to be a “pain-compliance”
technique, thus a lesser quantum of force that using the probes. . . . Officers
generally should not expect NMI to result from a drive-stun. . . . In addition, in
a dynamic altercation it is very difficult for an officer to apply and maintain the
application of a drive-stun to a person who is resisting or who is reacting to the
pain-compliance technique. The drive-stun contact points typically touch the body
for part of the time, but are out of contact with the body for part of the time during
the dynamic struggle to subdue the suspect.

Greg Meyer, TASER basics: What every judge and jury should know (Nov. 14, 2011),
https://www.policeone.com/less-lethal/articles/4558608-TASER-basics-What-every-judge-andjury-should-know/ (accessed 9/28/18). Officer Lubben testified that if a suspect is tased in probe
mode, officers must follow protocol for removing the probes from the suspect’s skin. Doc. No.
61 at 38. If a suspect is tased in drive mode, only a visual inspection is necessary. Id.

8

27a

8:23:13 p.m. for three seconds, again in drive mode. Id. at 31, 35. Officers were able
to cuff McManemy after the second taser burst. He was not tased again. Id.
During this struggle, Tierney is visible on the Dolleslager video walking around
and over Tierney to the left side of his head. Tierney does not appear to dispute that he
stepped on or near McManemy’s leg before walking around to the left side of
McManemy’s head but asserts that he may have tripped. Doc. No. 61 at 43. Tierney
states that he could not have kicked McManemy’s head from his position in the ditch,
and that although his knee may have been in contact with McManemy’s head while he
was trying to secure him, he did not knee McManemy in the face 20 to 30 times as
alleged. Id. The video shows that Tierney was on his knees by McManemy’s head for
approximately 41 seconds.5 Lubben confirmed that he did not see Tierney kick or knee
McManemy in the head. Id. at 38. While officers were searching McManemy, they
found a pair of “brass knuckles” in his rear pocket. Id. at 39.
The two dash cam videos submitted with the motion for summary judgment do not
clearly support either version of the nights’ events. McManemy is seen exiting his truck
as officers yell at him and lies down on the ground with his legs spread (his arms are not
fully visible) for a few seconds before the first officer reaches him. Over the next minute,
five or six more officers join the struggle. The road is stirred up with dust from the car
chase and the officers’ vehicles’ lights are flashing, further obscuring the scene. It is
impossible to see or hear when or whether McManemy is tased. It is also impossible to
determine whether his legs were kicking voluntarily or involuntarily and his arms are not
visible at all. Further, while some of the officers’ commands are clearly audible (i.e.,
“stop resisting”), it is impossible to determine what McManemy may have been saying.
After the arrest, officers are seen on the Dolleslager video celebrating.

5

Tierney is visible on the Dolleslager Video from 19:39:18 to the end of the struggle at 19:39:55.
However, his knees are not visible during the vast majority of that time.

9

28a

McManemy was booked into the Butler County Jail. A medical exam found that
he was scraped and bruised, but McManemy denied a need for immediate medical
attention. Later, McManemy was diagnosed with a contusion and nodular episcleritis in
his left eye after he reported symptoms of light sensitivity, headache and “floaters.”
Medical records from July 7, 2015, indicate that this condition was improved, with
treatment no longer needed. Doc. No. 67-3 at 72. No other lasting injuries were reported
from the arrest. McManemy was ultimately convicted in state court of felony eluding in
violation of Iowa Code § 321.279(b) and operating while under the influence (second
offense) in violation of Iowa Code § 321J.2(2)(b). See Iowa v. McManemy, 2121
OWCR010317 (Butler County, Iowa).
McManemy and the officers from Butler County are familiar with each other.
Prior to the March 18, 2015 arrest, McManemy has been arrested at least three times in
Butler County. Doc. No. 61 at 115-119. Officer Lubben testified that he was aware that
McManemy has access to weapons. Id. at 39.
V.

DISCUSSION

Defendants argue they are entitled to summary judgment on the § 1983 claims
because the undisputed facts demonstrate that McManemy’s constitutional rights were
not violated and that they are entitled to qualified immunity. As for the state law claims,
defendants argue that Iowa law immunizes them against claims for assault and battery
and negligence and, in the alternative, that no reasonable jury could find in favor of
McManemy on the undisputed facts. McManemy generally resists.
A.

Qualified Immunity Standards
“[O]fficers are entitled to qualified immunity under § 1983 unless (1) they violated

a federal statutory or constitutional right, and (2) the unlawfulness of their conduct was
‘clearly established at the time.’” District of Columbia v. Wesby, 138 S. Ct. 577, 589
(2018) (citation omitted). The Eighth Circuit Court of Appeals has stated:
10

29a

“What this means in practice is that whether an official protected by
qualified immunity may be held personally liable for an allegedly unlawful
official action generally turns on the ‘objective legal reasonableness’ of the
action, assessed in light of the legal rules that were ‘clearly established’ at
the time it was taken.” Wilson v. Layne, 526 U.S. 603, 614 (1999). The
Supreme Court has generously construed qualified immunity protection to
shield “all but the plainly incompetent or those who knowingly violate the
law.” Malley v. Briggs, 475 U.S. 335, 341 (1986). “Officials are not
liable for bad guesses in gray areas; they are liable for transgressing bright
lines.” Maciariello v. Sumner, 973 F.2d 295, 298 (4th Cir. 1992).
Davis v. Hall, 375 F.3d 703, 711 (8th Cir. 2004) (internal citations cleaned up). For the
“clearly established” prong of the qualified immunity analysis,
A legal principle must have a sufficiently clear foundation in then-existing
precedent. Normally this requires us – outside of an “obvious”
constitutional violation – “to identify a case where an officer acting under
similar circumstances as [the defendant] was held to have violated the
Fourth Amendment.” White v. Pauly, 137 S. Ct. 548, 552 (2017). While
the case need not be “directly on point, existing precedent must place the
lawfulness of the particular [act] beyond debate.” Wesby, 138 S. Ct. at
590.
Johnson v. City of Minneapolis, 901 F.3d 963, 972 (8th Cir. 2018) (internal citations
cleaned up).
Whether an officer is entitled to qualified immunity is a fact-dependent inquiry.
The Supreme Court has explained:
The first step in assessing the constitutionality of [the officers’] actions is
to determine the relevant facts. As this case was decided on summary
judgment, there have not yet been factual findings by a judge or jury, and
respondent’s version of events (unsurprisingly) differs substantially from
[the officers’] version. When things are in such a posture, courts are
required to view the facts and draw reasonable inferences in the light most
favorable to the party opposing the summary judgment motion. In qualified
immunity cases, this usually means adopting the plaintiff’s version of the
facts.
Scott v. Harris, 550 U.S. 372, 377 (2007) (internal citations omitted). In Scott, the lower
court had accepted the plaintiff’s version of the events. However, the Supreme Court
11

30a

clarified that the plaintiff-friendly summary judgment standard does not require courts to
ignore contrary evidence: “When opposing parties tell two different stories, one of which
is blatantly contradicted by the record, so that no reasonable jury could believe it, a court
should not adopt that version of the facts for purposes of ruling on a motion for summary
judgment.” Id. at 380.
McManemy’s case is one of the “usual” cases.6 As discussed above, the parties
dispute whether McManemy resisted being cuffed. The dash cam videos in this case,
while providing a spectacular view of the car chase, provide very little information about
the disputed arrest. Therefore, for the purposes of this motion, I will accept as true the
fact that McManemy did not purposefully resist being handcuffed, but rather that his right
arm was unable to move as directed and that his left arm was touching the side of his
body. Further, I will assume that Tierney did place his knee7 on McManemy’s face while
kneeling next to him, with at least as much force as necessary to cause the black eye that
was documented during McManemy’s first week at the Butler County Jail. However,
6

The Butler County defendants argue that the ambiguity of the video cannot be used to create a
“genuine dispute of material fact” upon which summary judgment can be denied. See Doc. No.
59 at 19-20. In Mann v. Yarnell, 497 F.3d 826, 827 (8th Cir. 2007), the Eighth Circuit held
that “a dark and often unintelligible video coupled with [Mann’s] entirely speculative and wishful
recitation of events that is neither substantiated by anything displayed in the video nor by the
memory of any observer or participant present at the altercation” failed to create a genuine issue
of fact because it amounted to “mere allegations, unsupported by specific facts or evidence
beyond the nonmoving party’s own conclusions.” (citations omitted). This case is
distinguishable from Mann. Here, it is clear from the video that Tierney is on the ground near
the left side of McManemy’s head. Tierney agrees that his knee may have made contact with
McManemy’s head, and indeed, McManemy suffered a black eye with lasting symptoms. The
fact that the video does not clearly demonstrate how much force was used and Tierney’s intent
in using that force means that resolving this issue depends on a credibility judgment. Issues of
credibility are not appropriately resolved on a motion for summary judgment.
7

It is at least clear from the video that Tierney did not kick McManemy in the face. Additionally,
the Butler County defendants argue that the truck’s driver’s side airbag was deployed and caused
the injury to the left side of McManemy’s face. See Doc. No. 59 at 23 n.5 (citing Doc. No. 61
at 48). However, as there is no direct evidence other than Johnson’s supposition during his
deposition that the airbag caused the injury, I must assume for the purposes of this motion that
Tierney did so.

12

31a

given the undisputed documentary evidence of the times at which the taser was deployed
– two bursts of three seconds each, 15 seconds apart – and the fact that McManemy
agrees that the first taser burst came before he was handcuffed, I do not find that
McManemy was tased after he was handcuffed.
B.

The Excessive Force Claims
McManemy makes the following allegations that the defendants violated his Fourth

Amendment right to be free from excessive force: (1) Dolleslager, by tasing him
repeatedly (Count I), (2) Lubben, by failing to intervene to protect McManemy from this
tasing (Count II), (3) Tierney, by kneeing him in the face (Count III) and (4) Lubben and
Dolleslager, by failing to protect him from this use of force (Count IV). McManemy
argues that the force used was unjustified, unreasonable and demonstrated a willful and
wanton disregard for his Fourth Amendment rights. Defendants contend that the force
used in arresting McManemy was de minimis and objectively reasonable based on the
circumstances the deputies faced.
The standard to apply in excessive force cases is well-settled:
The reasonableness of a use of force turns on whether the officer’s actions
were objectively reasonable in light of the facts and circumstances
confronting him, without regard to his subjective intent or motivation.
[Graham v. Connor, 490 U.S. 386, 397 (1989)]. We must consider the
totality of the circumstances, including the severity of the crime at issue,
whether the suspect poses an immediate threat to the safety of the officer or
others, and whether the suspect is actively fleeing or resisting arrest. Id.
at 396.
Malone v. Hinman, 847 F.3d 949, 952 (8th Cir. 2017) (citation omitted). “This calculus
allows for the fact that police officers are often forced to make split-second decisions—
in circumstances that are tense, uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.” Brown v. City of Golden Valley, 574
F.3d 491, 496 (8th Cir. 2009) (citation omitted).

13

32a

This reasonableness standard “is viewed from the vantage point of the police
officer at the time of arrest or seizure.” Gill v. Maciejewski, 546 F.3d 557, 562 (8th
Cir. 2008) (citation omitted); see also Billingsley v. City of Omaha, 277 F.3d 990, 993
(8th Cir. 2002) (“The aforementioned reasonableness of force is judged from the
perspective of the officer on the scene, taking into consideration the facts known to him,
as opposed to one possessing the illuminating power of hindsight.” (citation omitted)).
“Determining whether the force used to effect a particular seizure is ‘reasonable’ under
the Fourth Amendment requires a careful balancing of the nature and quality of the
intrusion on the individual’s Fourth Amendment interests against the countervailing
governmental interests at stake.” Howard v. Kan. City Police Dep’t, 570 F.3d 984, 989
(8th Cir. 2009) (quoting Graham, 490 U.S. at 396). “Circumstances relevant to the
reasonableness of the officer’s conduct include ‘the severity of the crime at issue, whether
the suspect poses an immediate threat to the safety of the officers or others, and whether
he is actively resisting arrest or attempting to evade arrest by flight.” Id. (quoting
Graham, 490 U.S. at 396). The court may also “consider the result of the force,” id.
(citation omitted), “the extent of the suspect’s injuries” and “standard police procedures.”
Mann, 497 F.3d at 826 (citation omitted).
The use of force to effect an arrest is not reasonable when a suspect does not “pose
an immediate threat to the safety of the officers or others,” and is “not in flight or resisting
arrest.” Small v. McCrystal, 708 F.3d 997, 1005 (8th Cir. 2013); see also Bauer v.
Norris, 713 F.2d 408, 412 (8th Cir. 1983) (“Force can only be used to overcome physical
resistance or threatened force.”). Although some force may be justified when an arrestee
refuses commands or passively resists arrest (i.e., refusing to stand), the force must be
proportionate to the situation. Compare Rokusek v. Jansen, 899 F.3d 544, 547-48 (8th
Cir. 2018) (when suspect was unarmed and fully within officer’s control, but refused
order to stand up to be handcuffed, officer used “more than ‘the force necessary’ to
handcuff” the suspect when he lifted him off of the ground and slammed his head into
the floor) with Carpenter v. Gage, 686 F.3d at 649-50 (when plaintiff suspected of
14

33a

assaulting first responders “refused to offer his hands when ordered to do so, and . . .
reached for the couch in an effort to lift himself from the floor . . . deputies on the scene
reasonably could have interpreted [his] actions as resistance and responded with an
amount of force that was reasonable to effect the arrest.”). However, the fact that a
suspect may have briefly stopped resisting or briefly complied with arrest does not end
the analysis. See Nelson v. Cnty of Wright, 162 F.3d 986, 991 (8th Cir. 1998) (“Nelson
now tries to analyze the brief struggles as if the incident were composed of distinct and
separate segments. At the time, however, it was uncertain what would happen next. The
situation was tense and ‘rapidly evolving.’” (citing Graham, 490 U.S. at 397).).
Finally, “an officer who fails to intervene to prevent the unconstitutional use of
excessive force by another officer may be held liable for violating the Fourth
Amendment.” Nance v. Sammis, 586 F.3d 604, 612 (8th Cir. 2009). “To establish a
failure to intervene claim . . . the plaintiff must show that the ‘officer observed or had
reason to know that excessive force would be or was being used.’” Hollingsworth v.
City of St. Ann, 800 F.3d 985, 991 (8th Cir. 2015) (citing Nance, 586 F.3d at 612). In
other words, there must be a clearly-established constitutional violation underlying the
failure-to-intervene.
1.

Dolleslager’s Actions (Counts I & II)

Accepting McManemy’s version of the events as true (except as clearly
contradicted by record evidence), but viewing the arrest and the use of force from the
vantage point of the arresting officers, the use of the taser was objectively reasonable.
From the officers’ point of view, it was not unreasonable to confuse McManemy’s
inability to bring his arms together behind his back – whether due to injury or resistance
– with active, intentional resistance. See Ehlers v. City of Rapid City, 846 F.3d 1002,
1011 (8th Cir. 2017) (“an arrestee’s subjective motive does not bear on how reasonable
officers would have interpreted his behavior” (citing Carpenter, 686 F.3d at 650)).
Particularly here, where the officers were faced with McManemy’s apparent resistance
15

34a

following a lengthy car chase, it was not unreasonable to believe that McManemy was
still actively resisting arrest. See Schoettle v. Jefferson Cnty, 788 F.3d 855, 860-61 (8th
Cir. 2015) (officer’s use of force was reasonable although plaintiffs’ belligerence was
caused by a medical condition, and not by intentional resistance).
McManemy’s perceived resistance was sufficient to justify Dolleslager in tasing
him twice before he was handcuffed. “Law enforcement officers may use physical force
to subdue an arrestee when he fails to comply with orders to lie still during handcuffing.”
Carpenter, 686 F.3d at 649 (citing Mann, 497 F.3d at 826). In Carpenter, the Eighth
Circuit held that the defendant officers “reasonably could have interpreted Carpenter’s
actions as resistance” when the plaintiff “had his arms underneath him, just huddled up
under his chest laying on top of them,” and the plaintiff ignored orders and physical
attempts by the officers to retrieve his hands for cuffing. 686 F.3d at 649-50. Under
those circumstances, the use of a taser in “drive mode” for a five second burst was
“reasonable to effect the arrest.” Id. at 649-50. Similarly, in Ehlers the Eighth Circuit
held that the use of a taser was reasonable when “Ehler’s behavior of continuing to lay
on his hand and refusing to comply with instructions” could reasonably be interpreted as
resistance. 846 F.3d at 1011.
This case is substantially similar to Ehlers and Carpenter.

It would be

unreasonable to require officers to determine, in the midst of an arrest, that an (alleged)
injury of which they were not aware prevented McManemy from complying. Further,
given the officers’ consistent testimony that McManemy’s left arm was moving below his
body and that he has a history of being armed and fighting (along with McManemy’s
testimony that he put his left arm against the side of his body), it was not unreasonable
to believe that McManemy was actively resisting. This interaction occurred after a 12
minute, high speed car chase, during which officers reasonably suspected that
McManemy was armed and carrying controlled substances. Under these circumstances,
Dolleslager’s use of a taser was reasonable.
16

35a

Because Dolleslager’s actions did not violate McManemy’s constitutional rights,
Lubben likewise did not violate McManemy’s constitutional rights by failing to intervene.
Defendants are therefore entitled to qualified immunity with regard to Counts I and II, as
there was no constitutional violation.
2.

Tierney’s Actions (Counts III & IV)

As to the allegation that Tierney kneed McManemy in the face during the course
of the arrest, causing a black eye and nodular episcleritis, it is not as clear that Tierney’s
actions were reasonable. Tierney alleges that the use of force was incidental to his
attempt to restrain McManemy as he resisted, and was therefore reasonable. He further
contends that he is entitled to qualified immunity for the use of a knee while restraining
McManemy because the Eighth Circuit has previously upheld the use of an officer’s knee
during an arrest when the suspect was perceived to be actively resisting. See White v.
Jackson, 865 F.3d 1064, 1080 (8th Cir. 2017) (“[W]e conclude that it was not an
unreasonable use of force to push [the plaintiff] to the ground and place a knee on his
back.”). McManemy responds that Tierney’s actions were similar to the gratuitous use
of force in Gill, 546 F.3d 557.
In Gill, the Eighth Circuit upheld an award of damages against an officer when
“[t]he evidence show[ed that] Gill did not resist and complied with the officers’ demands.
While Gill was pinned to the ground by multiple officers, Maciejewski approached and
smashed his knee into the hapless suspect’s head.” Id. Under those circumstances, the
“knee-drop maneuver” constituted excessive force. Id. Similarly, in Krout v. Goemmer,
583 F.3d 557, 566 (8th Cir. 2009), the Eighth Circuit held that kneeing the plaintiff five
to six times in the back after he was “handcuffed , not resisting, and fully subdued” was
a “gratuitous” use of force that could not be justified by the need to effect an arrest.
The actions taken by Tierney are not comparable in force to the “knee-drop
maneuver” on a fully-restrained suspect in Gill. Nor are Tierney’s actions comparable
to the “gratuitous” use of force held to be unreasonable in Krout, wherein the officer
17

36a

appeared to be punishing a prone suspect. Instead, Tierney approached McManemy from
the side and kneeled by his head in an attempt to get him under control. From this
position, his knee is alleged to have made contact with McManemy’s head from the side
as he attempted to restrain McManemy pursuant to a lawful arrest. Unlike the plaintiffs
in Gill and Krout, McManemy was not restrained and subdued at the time Tierney’s knee
made contact.

He had not submitted to being handcuffed and, from the officers’

perspective, was still actively resisting the handcuffs.
White is closer to the scenario presented in this case. In that case, the Eighth
Circuit held that an officer did not use excessive force when he pushed the plaintiff to the
ground and placed a knee on his back while he was being handcuffed, because “[t]he
right to make an arrest necessarily carries with it the right to use some degree of physical
coercion or threat thereof to effect it.” 865 F.3d at 1080 (citation omitted). Although
the knee in White was placed on the suspect’s back rather than his face, the purpose of
the officer using his knee was the same: to restrain the subject for the purpose of arrest.
Further, unlike the plaintiff in White, who was not resisting handcuffs at the time he was
taken to the ground for arrest, the undisputed evidence in this case indicates that a
reasonable officer would believe that McManemy was resisting. McManemy agreed that
he was thrashing and screaming, and that he did not give his left arm for cuffing because
he wanted the officers to use two sets of hand cuffs and because his shoulder was in pain.
As discussed above, McManemy’s subjective motive in withholding his arm is not
relevant, as I must observe his actions from the point of view of a reasonable officer.
In short, I find that the undisputed facts of this case entitle Tierney to qualified
immunity. It is doubtful that he violated McManemy’s constitutional rights, and there is
no existing precedent that places the lawfulness of Tierney’s actions beyond debate.
Although it is clear that gratuitous acts of violence, such as the knee-drop described in
Gill, serve no lawful purpose in an arrest, Tierney’s actions in kneeling near
McManemy’s face and making contact with his face – whether intentional or not – were
incidental to his attempts to restrain McManemy as he was resisting arrest.
18

37a

The fact that Tierney is entitled to qualified immunity ends the analysis of the
bystander liability claims against Dolleslager and Lubben. Because it was not clearly
established that Tierney’s actions constituted excessive force, Dolleslager and Lubben
were not on fair notice that their alleged failure to intervene may violate McManemy’s
Fourth Amendment rights. Thus, the defendants are entitled to summary judgment on
Counts III and IV.
C.

Counts VII, VIII and IX (State Law Claims)
McManemy also asserts the following state law claims: negligent hiring, training

and supervision against Johnson and Butler County (Count VII), assault and battery
against Lubben, Tierney and Winterberg (Count VIII) and negligence against Lubben,
Tierney, Winterberg and Johnson (Count IX). Because I am dismissing all claims brought
under federal law, I must consider whether to retain or decline supplemental jurisdiction
over the state law claims.
A district court may decline to exercise supplemental jurisdiction when the court
has dismissed all claims over which it has original jurisdiction. 28 U.S.C. § 1367(c)(3).
“A district court’s decision whether to exercise that jurisdiction after dismissing every
claim over which it had original jurisdiction is purely discretionary.” Crest Const. II,
Inc. v. Doe, 660 F.3d 346, 359 (8th Cir. 2011) (quoting Carlsbad Tech., Inc. v. HIF
Bio, Inc., 556 U.S. 635, 639 (2009)). While the determination of whether to dismiss
state-law claims pursuant to § 1367(c)(3) is a matter of discretion for a district court,
“[i]n the usual case in which all federal-law claims are eliminated before trial, the balance
of factors to be considered under the pendent jurisdiction doctrine – judicial economy,
convenience, fairness, and comity – will point toward declining to exercise jurisdiction
over the remaining state-law claims.” Barstad v. Murray Cnty, 420 F.3d 880, 888 (8th
Cir. 2005) (quoting Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 350 n.7 (1988)).
Among other things, this reflects a policy that federal courts should avoid addressing
state law issues when possible. Gregoire v. Class, 236 F.3d 413, 419-20 (8th Cir. 2000).
19

38a

For all of these reasons, I find that it is not appropriate to exercise supplemental
jurisdiction over the remaining state law claims. Those claims will be dismissed without
prejudice.
VI.

CONCLUSION

For the foregoing reasons:
1.

The motions for summary judgment filed by defendants Bruce Tierney,

Kiley Winterberg, Curt Lubben, Jason Johnson and Butler County (Doc. No. 57), and
by defendants Kirk Dolleslager, Rick Penning and Grundy County (Doc. No. 74), are
granted in part and denied in part, as follows:
a.

The motions are granted as to Counts I, II, III and IV, of the

complaint, all of which were brought pursuant to 42 U.S.C. § 1983. Those claims
are dismissed with prejudice. Judgment in favor of the defendants shall enter
with regard to Counts I, II, III and IV.
b.

The motions are denied as to Counts VII, VIII and IX, as I decline

to exercise supplemental jurisdiction over those state law claims.
2.

Counts VII, VIII and IX, which are brought pursuant to state law and are

the only remaining claims in this action, are hereby dismissed without prejudice.
3.

Because this order disposes of all remaining claims, the Clerk shall close

this case.
IT IS SO ORDERED.
DATED this 23rd day of October, 2018.

__________________________
Leonard T. Strand, Chief Judge

20

